0

BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 40 bound
copies and 1 unbound copy of the foregoing Brief of the
States of Louisiana, Arkansas, Kentucky, Mississippi,
Missouri, Montana, Nebraska, Texas & Utah as Amici
Curiae in Support of Respondents in 20-255, Mahanoy
Area School District u. B. L., a minor, by and through
her father, Lawrence Leuy and her mother, Betty Lou
Leuy, were sent via Next Day Service to the U.S.
Supreme Court, and 3 copies were sent via Next Day
Service and e-mail to the following parties listed
below, this 31st day of March, 2021:
Lisa Schiavo Blatt
Williams & Connolly LLP
725 12th Street, NW
Washington, DC 20005
(202) 434-5050
lblatt@wc.com
Counsel for Petitioner
Witold J. Walczak
ACLU of Pennsylvania
P.O. Box 23058
Pittsburgh, PA 15222
(412) 681-7864
vwalczak@aclupa.org
Counsel for Respondents

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
· Washington, DC 20005

Jeff Landry
Louisiana Attorney General
Elizabeth B. Murrill
Solicitor General
Counsel of Record
Ben Wallace
Assistant Solicitor General
Louisiana Department of Justice
1885 N. Third Street
Baton Rouge, LA 70804
(225) 205-8009
M urrillE@ag.louisiana.gov

Counsel for Amici Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on March 31, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

Yh.-M- u?, .6 I 1 cr0c)7

)~itv 6, ~

Notary Public
[seal]

JOHN D. CxLL.3HER
Notary Pub!ic, State of O'.li:1
My Commission Ex~,ir ~
: 2::ini:, CV 1 '. ?'' 'j

